Case l:19-cv-09557-PAE-SDA Document 24 Filed 01/22/20 Page 2 of 4
C ase l:19-cv-09557-PAE-SDA Document 23 Filed 12/23/19 Page 1 of 2

UNITED’ STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
EMMANUEL TORRES,
Plaintiff,
-v-

19 Civ. 9557 (PAR)
ORDER

BAY AREA CREDIT SERVICES, el al.,
Defendants.
PAUL A. ENGKLMAYER, District Judge:
E cforc the Court is plaintiff s pro se application to reopen this case.
On November 12, 2019 having been advised by the parties that they had reached a
settlement in principle, the Court issued an order closing this case. Dkt. 15. The Court directed
that any application to reopen the matter was to be filed within 30 days. Id. On December 6,
2019 plaintiff filed a pro se application to reinstate the case, a supporting brief, and a first
amended complaint. Dkts. 16,18, & 19. On December 10,2019 defendant American Medical
Response (“AMR”) filed a letter in opposition on the basis that a settlement between plaintiff,
AMR, and defendant Bay Area Credit Services (“BACS”) had been consummated. Dkt. 17.
AMR further stated that, as part of the settlement, plaintiff signed a release agreement promising
to refrai" from further litigation against AMR and BACS. Id. Also on December 10,2019
counsel for BACS filed a letter joining AMR’s opposition. Dkt. 20. On December 13,2020 the
Court issued an order instructing defendants to file, under seal, an affidavit and supporting
docume'Ration setting out the basis for their belief that the settlement had been consummated.
Dkt. 21. Defendants have now done so.

/3

C?se 1:19-CV-09557-PAE-SDA Document 24 Filed 01/22/20 Page 3 of 4
Case 1:19-cv-09557-PAE-SDA Document 23 Filed 12/23/19 Page 2 of 2

In its order closing this case, the Court stated that a party could move to reopen within 30
days it (he settlement is not consummated.” See Dkt. 15. The Court has reviewed the signed
settlement agreement between plaintiff and defendants BACS and AMR, which has been filed
under seal. Defendants have also submitted documentation under seal that leaves the Court
satisfied that BACS and AMR have upheld their end of the bargain. The Court therefore has no
trouble concluding that settlement has been consummated in this matter.
Plaintiffs application to reopen is therefore denied. The Clerk of Court is respectfully
directed to terminate the motion pending at docket 18, strike the First Amended Complaint at
docket 6, and dismiss defendants Wakefield & Associates and Rural Metro Ambulance Corp.,
which were added as parties by the First Amended Complaint. If plaintiff wishes to pursue
litigation against these new defendants he may do so in a court of appropriate jurisdiction. This
matter, however, will remain closed.
The Clerk of Court is respectfully directed to mail a copy of this Order to plaintiff.

SO ORDERED.

PAUL A.IjiNrfELM
United States District Judge

Dated: December 23, 2019
New York, New York

2

Case 20-297, Document 90, 01/25/2021, 3019975, Pagel of 1
S.D.N.Y.
19-ev-9557
Engelmayer, J.

United States Court of Appeals
FOR THE

SECOND CIRCUIT
At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgbod Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
25th day o f January, two thousand twenty-one.
Present:

Barrington D. Parker,
Raymond J. Lohier, Jr.,
Steven J. Menashi,
Circuit Judges.

Emmanuel Torres,

Docket No. 20-297

Plaintiff-Appellant,
v.
Bay Area Credit Services, American Medical Response, Inc.,
Defendants-Appellees,
Wakefield and Associates, Rural Metro Ambulance Corp.,
Defendants.
Appellee American Medical Response, Inc. moves, unopposed, to dismiss the appeal as moot
Upon due consideration it is hereby ORDERED that the motion is GRANTED and the appeal is
dismissed as MOOT. See LaForest v. Honeywell Int'l Inc., 569 F.3d 69, 73-74 (2d Cir. 2009).
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

Case 20-297. Document 105, 03/26/2021, 3064920, Pagel of 1

UNITED STATE S COURT "OF APPEALS
FOR THE
SECOND CIRCUIT
A : a Stated Term of the United States Court of Appeals for the Second Circuit, held at
the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York , on
the 26th day of March, two thousand twenty-one,
Present: 3arrington D. Parker,
Raymond J. Lohier, Jr.
Steven J. Menashi,
Circuit Judges,

Emmanuel Torres,

ORDER
Docket No. 20-297

Plaintiff - Appellant,
v.

Bay Area Credit Services, American Medical Response,
Inc.,
Defendants - Appellees,
Wakefield and Associates, Rural Metro Ambulance
Corp.,
Defendants.

Appellant Emmanuel Torres filed a motion for reconsideration and the panel that
determined the motion has considered the request.
IT IS HEREBY ORDERED, that the motion is denied.
For The Court:
Catherine O'Hagan Wolfe,
Clerk of Court

MANDATE"”^

S.D.N.Y.
19-ev-9557
Engelmayer, J.

United States Court of Appeals
FOR THE

SECOND CIRCUIT
At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
25th day of January, two thousand twenty-one.
Present:

Barrington D. Parker,
Raymond J. Lohier, Jr.,
Steven J. Menashi,
Circuit Judges.

Emmanuel Torres,

Docket No. 20-297

Plaintiff-Appellant,
v.
Bay Area Credit Services, American Medical Response, Inc.,
Defendants-Appellees,
Wakefield and Associates, Rural Metro Ambulance Corp.,
Defendants.

dismissed as MOOT. See LaForest v. Honeywell Int'l Inc., 569 F.3d 69

73-74 (2d Cir. 2009).

FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

A True Copy
Catherine O'Hasan YU
United States Cotaw

>rh

econd Circuit
*

MANDATE ISSUED ON 04/02/2021

